CREED & GOWDY
AN APPELLATE LAW FIRM

865 May Street, Jacksonville, Florida 32204
Rebecca Bowen Creed*
Bryan S. Gowdy*
Meredith A. Ross
Dimitri A. Peteves
D. Gray Thomas*, of counsel
Thomas A. Burns*, of counsel

(904) 350 0075 Telephone
(904) 503 0441 Facsimile
www.appellate-firm.com

* Board Certified as Appellate Specialist by The Florida Bar

May 25, 2021
Submitted via The Supreme Court’s Electronic Filing System
The Honorable Scott. S. Harris, Clerk
United States Supreme Court
1 First Street, NE
Washington, D.C. 20543
Re:

Gianinna Gallardo v. Simone Marstiller, In Her Official Capacity as Secretary of the
Florida Agency for Health Care Administration, Case No. 20-1263

Dear Mr. Harris:
I represent the petitioner, Ms. Gallardo. Pursuant to Rule 15.5, Petitioner waives the 14day waiting period and requests that the petition and response be distributed on the earliest possible
distribution date once the response is submitted.
Thank you for your consideration. Please do not hesitate to contact me if you have any
questions or concerns.
Respectfully Submitted,
s/Bryan S. Gowdy
Bryan S. Gowdy
Counsel of Record
cc: James H. Percival
Counsel of Record

